 ®                 SIGARI
                                    Office of the Special Inspector General
                                    for Afghanistan Reconstruction




June 21, 2013


General Joseph F. Dunford, Jr.
 Commander, U.S. Forces-Afghan istan, and
 Commander, International Security Assistance Force


An urgent safety matter has come to my attention that I believe requires your immediate action. Specifically, I
want to alert you to potentially life threatening risks at the Bathkhak School addition in the Bagrami district,
Kabul province, Afghanistan. 1

My office recently conducted an inspection of the Bathkhak School addition and is in the process of preparing
a report on it. While this report will be completed in the next few weeks, we believe the potential safety risks at
this school are of such a magnitude that we could not delay bringing them to your attention.

Our inspection of the Bathkhak School addition found that it has not been constructed in accordance with
contract requirements. The contractor substituted building materials without prior U.S. government approval or
knowledge. Furthermore, the school addition appears to have design and construction flaws that could
compromise its structural integrity. Specifically, the school's interior and exterior walls appear t o be
insufficiently constructed to hold the weight of the concrete ceiling. The concrete ceiling and roof (the contract
requirements called for a wood-truss ceiling with a sheet metal roof) rest on the brick walls. It is not known if
the walls were reinforced to hold the additional weight of a concrete ceiling or whether the concrete ceiling and
room adheres to the seismic design standards, as required by the Commander's Emergency Response
Program guidance.2 As a result, the building's structural integrity could be compromised.

Because the first U.S. government oversight visit did not take place until six months after const ruction started,
there may be other deficiencies that cannot be seen. Our concerns are heightened by the fact that Bathkhak
School is located in an area of high seismic activity. In light of these construction flaws and the distinct
possibility that an earth-quake resistant design was not used, we have serious concerns for the safety of the
hundreds of faculty and children that will be using the classrooms at any given time.

Given the potential harm to the children, faculty, and others who will occupy th e Bathkhak School, we request
that you take al l necessary and appropriate measures to address the safety risks discussed in this letter. Our
inspection report will include recommendations to address these matters and will be provided to you as soon
as it is completed. In the meantime, my staff is available to brief you on our find ings and proposed actions.

We urge you to delay the transfer of the Bathkhak School buildings to the Afghan government until you receive
our inspection report and are able to take action to address the full set of concerns discussed therein. Due to a



l in August 2012, U.S. Forces-Afghanistan, under the Commander's Emergency Response Program (CERP), awarded a
$262,899 contract to Emaar Emarat Construction Company to build a school addition in the village of Bathkhak, in the
Bagrami district, Kabul province.
2USFOR-A Pub 1-06, Commander's Emergency Response Program SOP, "Money As A Weapon System-Afghanistan
(MAAWS-A)", Ma rch 2012.




1550 Crystal Drive, 9th Floor   Mall: 2530 Crystal Drive              Tel: 703 545 6000   www.sigar.mn
Arlington, VIrginia 22202       Arlington, Virginia 22202-3940
serious risk that the building could collapse, we also will be requesting the U.S. Embassy in Kabul to notify the
Afghan Ministry of Education of these safety concerns.

Should you or your staff have any questions or need additional information, please contact Elizabeth Field,
Assistant Inspector General for Audits and Inspections, at 703-545-6006 or elizabeth.a.field9.civ@mail.mil.
Thank you in advance for your cooperation.




cc:

General Lloyd J. Austin Ill
Commander, U.S. Central Command

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command

Lieutenant General Thomas B. Bostick
 Commanding General and Chief of Engineers
 U.S. Army Corps of Engineers

The Honorable James B. Cunningham
 U.S. Ambassador to Afghanistan

Ms. Sarah W. Wines
 USAID Acting Mission Director for Afghanistan




SIGAR SP-13-5 Safety Alert: Bathkhak School                                                                 PageZ
